                       u.s. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                                AUDITING DIVISION

                                                               AUDIT REPORT
                                                      Issue Date: November 12, 2010

                                                      Number: 11-03

To:           Jonathan I. Carver
              Chief Financial Officer,
              lsi Original Signed
From:         Debra S:-Ritt .
              Assistant Inspector General for Auditing.

Subject:      Audit ofSBA's FY 2010 Financial Statements


Pursuant to the Chief Financial Officer's Act of 1990, attached is a copy of the
Independent Auditors' Report issued by KPMG LLP on the Small Business
Administration's financial statements for the fiscal year ended September 30,2010. The
audit was performed under a contract with the Office of Inspector General (OIG) and in
accordance with Generally Accepted Government Auditing Standards; Office of
Management and Budget's (OMB) Bulletin 07-04, Audit Requirementsfor Federal
Financial Statements, as amended; the Government Accountability Office
(GAO)lPresident's Council on Integrity and Efficiency (pCIE) Financial Audit Manual; and
GAO's. Federal Information System Controls Audit Manual.

The KPMG report concluded that SBA's consolidated financial statements presented fairly,
in all material respects, the financial position of SBA as of and for the years ended
September 30, 2010 and 2009. It also presented fairly, in all material respects, SBA's net
costs, changes in net position, and combined statements of budgetary resources for the years
then ended.

With respect to internal controls, KPMG continued to report a significant deficiency related
to Information Technology security controls. Details regarding the matters that led to the
auditor's conclusion on internal controls are further discussed in Exhibit I of the
Independent Auditors' Report. KPMG's test for compliance with certain laws, regulations,
contracts and grant agreements determined that the Agency did not fully comply with the
Debt Collection Improvement Act of 1996 because guidelines regarding referrals of
delinquent debt for Treasury cross-servicing and offset were not consistently followed.
Details regarding the auditor's conclusion are included in the "Compliance and Other
Matters" section of the Independent Auditors' Report. The auditors did not report any other
instances or matters regarding noncompliance.

We provided a draft ofKPMG's report to SBA's Chief Financial Officer (CFO), who
concurred with its findings and recommendations and agreed to implement the
recommendations. The CFO is delighted that SBA has again received an unqualified
audit opinion and believes these results accurately reflect the quality of the Agency's
financial statements and its improved accounting, budgeting and reporting processes.

We reviewed a copy ofKPMG's report and related documentation and made necessary
inquiries of their respective representatives. Our review was not intended to enable us to
express, and we do not express, an opinion on the SBA's financial statements, KPMG's
conclusions about the effectiveness of internal control, or its conclusions about SBA's
compliance with laws and regulations. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with Generally Accepted Government
Auditing Standards.

We appreciate the cooperation and assistance of SBA and KPMG. Should you or your staff
have any questions, please contact me at (202) 205_[FOIAeX2br Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205- [FOIAex.2]

Attachment
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                                         Independent Auditors' Report


Office of Inspector General,
U.S. Small Business Administration:

We have audited the accompanying consolidated balance sheets ofthe U.S. Small Business Administration
(SBA) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and changes
in net position, and combined statements of budgetary resources (hereinafter referred to as "consolidated
financial statements") for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our Fiscal Year (FY)
2010 audit, we also considered SBA's internal control over financial reporting and tested SBA's
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements that
could have a direct and material effect on these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that SBA's consolidated
financial statements as of and for the years ended September 30, 2010 and 2009, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
that we consider to be a significant deficiency, as defined in the Internal Control Over Financial Reporting
section ofthis report, as follows:

Improvement Needed in Iriformation Technology (IT) Security Controls

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed one instance of noncompliance that is required to be reported under Government
Auditing Standards , issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements , as amended.

Noncompliance with the Debt Collection Improvement Act

The following sections discuss our opinion on SBA' s consolidated fmancial statements; our consideration
of SBA's internal control over financial reporting; our tests of SBA's compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements; and management's and our
responsibilities.




                                KPMG LLP is a Delawa re limited liability partnership,
                                the U. S. member firm of KPMG International Cooperative
                                (~ KPM G International"), a Swiss entity.
u.s. Small Business Administration
November 12, 2010
Page 2 of4


Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of SBA as of September 30, 2010 and
2009, and the related consolidated statements of net cost and changes in net position, and the combined
statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of SBA as of September 30, 2010 and 2009, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

The information in the Management's Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions , to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity's financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
FY 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over fmancial reporting described in Exhibit I that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

Exhibit II presents the status of the prior year material weakness, and Exhibit III presents the status of the
prior year significant deficiency.

We noted certain additional matters that we have reported to management of SBA in a separate letter dated
November 12, 2010.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed one instance of noncompliance that is required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04, and is described below.
u.s. Small Business Administration
November 12, 2010
Page 3 of4


Debt Collection Improvement Act of 1996 (DCIA). During our testwork over loan charge-offs, we noted
SBA did not refer loans to Treasury for cross-servicing in accordance with the DCIA. Specifically, we
noted ten loan charge-off transactions that were not referred to Treasury for cross-servicing. Two of the ten
loans were loan guaranties that were not referred at time of charge-off. The remaining eight loans were not
referred due to outdated referral system programming logic which prevented the automatic referral of
charged-off loans to Treasury. Through additional research covering the population of Disaster loans
charged-off during FY 2010, SBA identified a total of 473 disaster loans that were not referred for cross­
servicing. Of the 473 loans identified, 334 loans were not referred due to the referral dates being out of the
system range parameter; thus preventing the system from transmitting the loan referrals to Treasury. SBA
was unable to determine why the remaining 139 charged-off loans were not referred. According to SBA
management, efforts are underway to address the issues noted which caused the system errors. Further,
SBA management agreed to perform an analysis of Disaster loans charged-off in prior years to identify and
correct potential additional issues of noncompliance. Exhibit IV presents the status of the prior year
noncompliance finding.

The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which SBA's financial management systems
did not substantially comply with (1) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) the United States Government Standard General Ledger at the
transaction level.

                                                *******
Responsibilities
Management's Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to SBA.

Auditors' Responsibilities. Our responsibility is to express an OpInIOn on the FY 2010 and 2009
consolidated financial statements of SBA based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards , issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of SBA's internal control over financial reporting.
Accordingly, we express no such opinion.
u.s. Small Business Administration
November 12, 2010
Page 4 of4


An audit also includes:

•	    Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•	    Assessing the accounting principles used and significant estimates made by management; and
•	    Evaluating the overall consolidated financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our FY 2010 audit, we considered the SBA's internal control over financial
reporting by obtaining an understanding of SBA's internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of SBA's internal control
over fmancial reporting. Accordingly, we do not express an opinion on the effectiveness of SBA's internal
control over financial reporting. We did not test all controls relevant to operating objectives as broadly
defmed by the Federal Managers' Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether SBA's FY 2010 consolidated financial statements
are free of material misstatement, we performed tests of SBA's compliance with certain provisions oflaws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in Section
803(a) of FFMIA. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws, regulations, contracts, and grant agreements
applicable to SBA. However, providing an opinion on compliance with laws, regulations, contracts, and
grant agreements was not an objective of our audit and, accordingly, we do not express such an opinion.

                                               *******
SBA's response to the findings identified in our audit are presented in Exhibit V. We did not audit SBA's
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of SBA's management, SBA's Office of
Inspector General, OMB, the U.S . Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2010
                                                                                                      Exhibit I
                                     u.s. Small Business Administration
                                             Significant Deficiency


The significant deficiency identified for the year ended September 30, 2010, is summarized below:

(1) Improvement Needed in Information Technology (IT) Security Controls

We made many recommendations to address IT weaknesses identified during the Fiscal Year (FY) 2009 SBA
audit. Although SBA has made some progress related to the FY 2009 weaknesses, improvements are still
necessary. During FY 2010, we noted additional weaknesses in security access controls, including configuration
and patch management, and segregation of duties. We are not providing details in this report on the specific
weaknesses due to their sensitivity, but we have provided the details under a separate cover to SBA management.

Security Access Controls

Integral to an organization's security program management efforts, system security access controls should
provide reasonable assurance that IT resources, such as data files , application programs, and IT -related
facilities/equipment, are protected against unauthorized modification, disclosure, loss, or impairment.

A summary of the security access weaknesses we identified during the FY 2010 SBA financial statement audit
follows:
• 	 We identified several high and medium risk security vulnerabilities affecting various financial systems. We
    provided the detailed vulnerabilities to SBA management.

• 	 We identified weaknesses in network access controls.

• 	 We noted several high and medium risk security vulnerabilities affecting another key financial system, which
    is hosted by an SBA service provider. Although the service provider was monitoring the vulnerabilities and a
    plan to mitigate such weaknesses was developed, it was not implemented at the time of our review.

• 	 We identified system patches that were not applied in a timely manner to a key financial system. Based on
    review of the Plan of Actions and Milestones (POA&M) for the system, we could not determine whether
    corrective actions were made timely.

• 	 Password configuration settings for two key financial systems need improvement. We noted that one
    financial system did not enforce user password history, password complexity or account lockout after a
    specified number of failed login attempts. Another key financial system did not enforce password history,
    password complexity, password changes after 90 days, or account lockout after a specified number of failed
    login attempts. In addition, we found that password length settings are not compliant with SBA Standard
    Operating Procedure (SOP) 90.47.2, Automated Information Systems Security Program.

• 	 Physical access control procedures are not current and have not been implemented at one SBA location.

• 	 Several users have unnecessary access to a SBA financial subsystem.

• 	 User accounts are not periodically reviewed for three key financial systems.

• 	 There are weak controls over the monitoring and review of audit logs for four of seven systems we reviewed.

                                                      1-1 

                                                                                                          Exhibit I
                                       u.s. Small Business Administration
                                               Significant Deficiency


Recommendations - Security Access Controls:

We recommend that the ChiefInformation Officer (CIO) coordinate with SBA program offices to:

1. 	 Improve the vulnerability tracking and monitoring process to fully address high and medium risk
     vulnerabilities for key financial systems. Ensure that the vulnerability reports are reviewed and analyzed on a
     regular basis. Periodically monitor the existence of necessary services and protocols running on servers and
     network devices. Develop a more thorough approach to track and mitigate patch management and
     configuration management vulnerabilities identified during monthly scans.

2. 	 Prevent users from anonymously connecting unauthorized devices by developing and implementing
     procedures to ensure mandatory domain authentication for IP address issuance.

3. 	 Improve the POA&M review and approval process for key financial systems. In addition, include all
     unresolved weaknesses on the POA&M (including vulnerabilities identified at service providers).

4. 	 Enforce financial system password controls for System Administrators and Database Administrators (DBAs)
     and physical access controls in accordance with SBA SOP 90.47.2.

5. 	 Develop and implement procedures for user access reviews to ensure that proper access rights are set for
     financial subsystems.

6. 	 Oversee the review and validation of financial system accounts on a periodic basis.

7. 	 Implement a process to monitor the audit logs of all financial applications on a regular basis.

Segregation ofDuties
The primary focus of an organization's segregation of duties controls is to provide reasonable assurance that
incompatible duties are effectively segregated. Without such controls, there is a risk that unauthorized changes
could be implemented into the IT environment, and users may have access that is inappropriate for their duties.
As a result, the confidentiality, integrity, and availability of financial data are at risk of possible loss,
modification, or disclosure.

A summary of the segregation of duties control deficiencies we identified during the FY 2010 SBA financial
statement audit follows:

• 	 Application programmers for a key financial system have the ability to make changes and implement the
    changes into the production environment.

• 	 Access to the development and production libraries of a key financial system is not restricted based on job
    role/functions or privileges.

• 	 Certain Information Security staff and DBAs have incompatible access privileges for a financial system,
    which enable them to perform the user administration functions (i.e., grant any role, create user, become user,
    alter user, or drop user). We determined that compensating IT controls are not in place to mitigate this
    weakness.
                                                     1-2
                                                                                                          Exhibit I
                                      u.s. Small Business Administration
                                              Significant Deficiency


Recommendations - Segregation of Duties:

We recommend the Chief Financial Officer:

8. 	Implement procedures and conduct audits of financial system software changes to ensure all changes are
    sufficiently approved and tested.

We also recommend the CIO:

9. 	 Restrict access to software program libraries based on the principle ofleast privilege, and periodically review
     access to the libraries.

10. Separate user and data administration functions for financial systems, or implement compensating IT controls
    such as management review of user administration functions.

Security Management
An entity-wide information security management program is the foundation of a security control structure and a
reflection of senior management's commitment to addressing security risks. This security management program
should establish a framework, and continuous cycle of activity for assessing risk, developing and implementing
effective security procedures, and monitoring the effectiveness of these procedures.
A summary of the security management weaknesses we identified during the FY 2010 SBA financial statement
audit follows:

• 	 A mandatory training program for IT security personnel has not been implemented.

• 	 We could not obtain sufficient evidence that media was sanitized properly in accordance with SBA policy.

• 	 SBA implemented end-user security policies and procedures in May 2010, but the policies were not
    implemented during FY 2010.

Recommendations - Security Management:

We recommend the CIO:

11 . Develop a comprehensive security education and training program for all IT security personnel and a method
     for monitoring the training program.

12. Implement and enforce the procedures documented in SOP 90.47.2 for sanitizing media to be disposed and
    for maintaining a log of employees who sanitize media to validate the appropriateness of the sanitization
    process.

13 . Coordinate with program offices using end-user programs contammg sensItIve data, such as Personally
     Identifiable Information and financial data, to implement end-user computing procedures in accordance with
     the guidance.



                                                       1-3
                                                                                                         Exhibit I
                                      u.s. Small Business Administration
                                              Significant Deficiency


Software Configuration Management

The primary focus of an organization's software configuration management process is to control the software
changes made to networks and systems. Without such controls, there is a risk that security features could be
inadvertently, or deliberately, omitted or turned off, or that processing irregularities or malicious code could be
introduced into the IT environment.

A summary of the configuration management weaknesses we identified during the FY 2010 SBA financial
statement audit follows:

• 	 The configuration management process is not centralized, and the Enterprise Change Control Board
    governance processes are not fully implemented across SBA.

• 	 SBA personnel could not provide sufficient evidence to support software change authorizations for several
    financial systems.

Recommendations - Software Configuration Management:

We recommend the CIO:

14. Enforce an organization-wide configuration management process, to include policies and procedures for
    maintaining documentation that supports testing and approvals of software changes.




                                                       1-4 

                                                                                                          Exhibit II
                                     u.s. Small Business Administration
                                    Status of Prior Year Material Weakness


Fiscal Year 2009 Finding                                  Fiscal Year 2010 Status of Finding

During Fiscal Year (FY) 2009, we reported a material      During FY 2010, SBA made significant operational
weakness in internal control related to SBA's financial   improvements over the controls surrounding the year­
reporting.                                                end financial reporting process. These improvements
                                                          included automating previously manual processes and
                                                          .       .
                                                          mcreasmg the level of financial statement review
                                                          performed by personnel within the Office of the Chief
                                                          Financial Officer. In addition, our testwork did not
                                                          identify any significant misstatements in FY 2010.

                                                          Therefore, in FY 2010, this matter is closed.




                                                      II-I 

                                                                                                Exhibit III
                                 u.s. Small Business Administration
                               Status of Prior Year Significant Deficiency


Fiscal Year 2009 Finding                              Fiscal Year 2010 Status of Finding

Improvement Needed In Information Technology (IT)     During our review of SBA's IT general and application
Security Controls                                     controls, we noted minimal improvements made to
                                                      address pnor year findings. Therefore, control
                                                      deficiencies continue to exist.

                                                     Therefore, in fiscal year 2010, the presentation of the
                                                     issue was modified to reflect current year operations,
                                                     and we continue to report a significant deficiency in
                                                     internal controls as it relates to IT systems and their
                                                     impact on the consolidated financial statements. See
                                                     Exhibit I for additional information.




                                                  III-I 

                                                                                                  Exhibit IV
                                    u.s. Small Business Administration
                                     Status of Prior Year Noncompliance


Fiscal Year 2009 Finding                                Fiscal Year 2010 Status of Finding

Debt Collection Improvement Act of 1996 (DCIA)           During our review over SBA's compliance with the
                                                         DCIA, we noted improvements made III SBA's
During our Fiscal Year (FY) 2009 audit, as stated in its Treasury offset and cross-servicing referral process.
Federal Managers' Financial Integrity Act (FMFIA) However, during FY 2010 we noted instances of
Assurance Statement, SBA management reported the noncompliance related to timely referrals of loan
agency was noncompliant with the DCIA in FY 2009. charge-offs to Treasury for cross-servicing.
The noncompliance was due to instances where SBA
did not refer a substantial number of charged off loans Therefore, in FY 2010, the issue is again presented in
to Treasury for offset and cross servicing.              the Compliance and Other Matters section of our
                                                         Independent Auditors' Report.




                                                     IV-l
                                                                                         Exhibit V


                    u.s.   SMALL BUSINESS AOMINISTRATION
                             WASHINGTON. D.C. 20416




DATE:           November 12, 2010

TO:             Debra Ritt, AssisAlant IG for Auditing
                               [FOIA ex. 6]
FROM:           Jonathan CarYN. Chief Finantiai Officer

SUBJECT:        Draft Audit Report on FY 2010 Financial Statements

The Small Business Administration is in receipt of the draft Independent Auditors' Report from
KPMG that includes the auditor's opinion on the financial statements and review of the Agency's
internal control over financial reporting and compliance with laws and regulations. The
independent audit of the Agency's financial statements and related processes is a core
component of SBA's financial management program.

We are delighted that the SBA has again received an unqualified audit opinion from the
independent auditor with no reported material weaknesses. We believe these results accurately
reflect the quality of the Agency's financial statements and our improved accounting, budgeting
and reporting processes. As you know, the SBA has worked hard over the past several years to
address the findings from our independent auditors. Our core financial reporting data and
processes have improved substantially, and we are proud that the results of our efforts have been
confirmed by the independent auditor.

The audit report includes a continuing significant deficiency in SBA's information technology
controls. As the auditors noted in their report on the 2010 financial statements, the SBA made
substantial progress in resolving IT deficiencies. The SBA will continue to improve the Agency's
IT security during the upcoming fiscal year. The SBA is developing plans to track, monitor, and
aggressively mitigate vulnerabilities in all Agency systems. Furthermore, the SBA will clarify and
strengthen detailed procedures required to ensure security access controls are in place to protect
SBA data from unauthorized modification, disclosure, and loss.

The audit report identified one instance of non-compliance with applicable laws and regulations
as of September 30,2010. Due to a system error, 473 of 8,229 charged off disaster loans, or 5.7
percent. were not referred to Treasury for cross-servicing and for the Treasury offset as required
by the Debt Collection Improvement Act. This represents $11.3 million of the $247.5 million
disaster loans written-off in FY 2010, or 4.6 percent. The system issue has been identified and is
in the process of being remedied, and a mitigation plan has been developed to ensure that this
issue will not recur. All loans eligible for Treasury referral will be referred within the next six
months. In FY2009, through the SBA's self-assessment process it was identified that the agency
was not referring non-disaster loans for the Treasury off-set program; this was corrected in
FY2010. There were no issues identified in the testing of the improved internal controls over non­
disaster loans by both our independent auditors and our OMB A-123 team in the current year,
and we antiCipate the same successful resolution for the disaster loans in FY 2011.

We appreciate all of your efforts and those of your colleagues in the Office of the Inspector
General as well as those of KPMG. The independent audit process continues to provide us with
new insights and valuable recommendations that will further enhance SBA's financial
                                                                                  Exhibit V


management practices. We continue to be committed to excellence in financial management and
look forward to making more progress in the coming year.
